Monday, July 13, 2020
Re: IN THE UNITED STATES SUPREME COURT, PETITION FOR A WRIT OF
CERTIORARI word limitation certificate
Walter Reinhaus, Appellant, Unrepresented Party
24 West McMicken Av
Cincinnati, Ohio 45202
513.241.3855
v.
Zoning Board of Appeals of the City of Cincinnati, Appellee
On Appeal from the Court of Appeals, Ohio First District, Hamilton County, Appeal
No. C180616, Trial No. A1801386
After the Supreme Court of Ohio declined jurisdiction, Case No. 2020-0160.
WORD LIMITATION COMPLIANCE CERTIFICATE

Total number of words in the document: 5,838

The brief complies with the word limitations.

Respectfully yours,

Walter Reinhaus

